U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Eric Kamahele v. United States of America,
S.Ct. No. 20-7749

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 12,
2021, and placed on the docket on April 14, 2021. The government’s response is due on May
14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7749
KAMAHELE, ERIC
USA

BENJAMIN C. MCMURRAY
UTAH FEDERAL PUBLIC DEFENDER
46 W BROADWAY
STE. 110
SALT LAKE CITY, UT 84101
801-524-4010

